1700 K Street NW
Fifth Floor
Washington, DC 20006
t

PHONE

202.973.8800

www.wsgr.com

January 17, 2020
BY FEDEX
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

Governor of Delaware v. James R. Adams, No. 19-309

Dear Mr. Harris:
I represent Petitioner in the above-captioned case and write to inform you that
Petitioner consents to the filing of any and all amicus briefs related to the abovecaptioned case, whether in support of either or neither party.
Thank you for your attention in this matter.
Sincerely,
/s Steffen N. Johnson
Steffen N. Johnson
cc: Counsel of Record

